OIG Audit Report GR-30-06-002

United States Marshals Service Intergovernmental Service Agreement for Detention Facilities with the District of Columbia Jail, Washington D.C.
Audit Report GR-30-06-002
March 2006
Office of the Inspector General


Executive Summary


The  United States  Marshals Service (USMS) assumes custody of individuals arrested by all federal  agencies. It is responsible for the  housing and transportation of federal detainees from the time they are brought  into federal custody until they are either acquitted or incarcerated.1   Each day, the USMS houses more than 47,000 detainees  throughout the United States. In order to house these pre-sentenced  detainees, the USMS executes contracts known as Intergovernmental Service  Agreements (IGA) with state and local governments to rent jail space. According to the USMS, 75 percent of the  detainees in USMS custody are detained in state, local, or private facilities.
An IGA is a formal agreement between  the USMS and a state or local government to house federal prisoners at a fixed jail  day rate based on actual and allowable costs for the same level of service  provided to state or local prisoners in a specific facility.2  To request either a jail  day rate, or an increase to the current jail day rate, the USMS requires the  local governments to complete and submit a Form USM-243, Cost Sheet for  Detention Services (Cost Sheet), to the appropriate USMS district office. The USMS district office then forwards the Cost  Sheet to USMS Headquarters for evaluation and approval.
The  USMS awarded the District of Columbia Department of Corrections (DCDOC) IGA  number 16-00-0016 on September 22, 2000.  According to the IGA, prisoners are housed in the DC Jail at a rate of  $84.39 per jail day. In June and December 2004 the USMS modified  the IGA to include reimbursement for guard transportation services at a rate of  $24.42 and $31.03 a day, respectively. According  to the DCDOC’s accounting records for  Fiscal Year (FY) 2004, the DCDOC was paid $26,025,630  for the housing, transportation, and external medical expenses of federal  detainees under the IGA.
The  purpose of the audit was to determine if the allowable costs for the detention  and care of inmates under OMB Circular A-87, “Cost Principles for State, Local  and Indian Tribal Government” supported the jail day rate.3  Based on our  audit of actual costs and daily population, we determined that the DCDOC’s  records supported the rate used to bill the USMS.


 

Footnotes

Federal detainees are generally individuals  housed in jails awaiting trial, sentencing, or immigration hearings or removal  proceedings.
A jail day is the equivalent of one person incarcerated for one day and  begins on the date of arrival, but does not include the date of departure.
For more information on our objectives, scope,  and methodology see Appendix I.





 




Return to OIG Home Page